                                       SOCIAL SECURITY

MEMORANDUM

Date:      September 13, 2002                                                Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Controls to Prevent Supplemental Security Income Payments to Recipients Living in
           Foreign Countries (A-01-02-12013)


           The attached final report presents the results of our audit. Our objective was to
           determine whether specific Social Security Administration controls were effective in
           preventing Supplemental Security Income payments from being made to recipients
           living in foreign countries.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on each recommendation. If you wish to discuss the final report,
           please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit, at (410) 965-9700.




                                                          James G. Huse, Jr.


           Attachment
          OFFICE OF
   THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


      CONTROLS TO PREVENT
     SUPPLEMENTAL SECURITY
       INCOME PAYMENTS TO
        RECIPIENTS LIVING IN
        FOREIGN COUNTRIES


 September 2002     A-01-02-12013


   AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                    Executive Summary
OBJECTIVE

Our objective was to determine whether specific Social Security Administration (SSA)
controls were effective in preventing Supplemental Security Income (SSI) payments
from being made to recipients living in foreign countries.

BACKGROUND

Section 1611(f) of the Social Security Act states that no individual shall be considered
eligible for SSI payments for any month throughout which the individual is outside the
United States. This prohibition also applies to recipients in Puerto Rico and the Virgin
Islands. If an SSI recipient also receives Old-Age, Survivors and Disability Insurance
(OASDI) benefits, SSA refers to the individual as a concurrent beneficiary. Concurrent
beneficiaries are generally entitled to receive their OASDI benefits while outside the
U.S.; however, SSI benefits are only paid while the individual is in the U.S. As a result,
when concurrent beneficiaries leave the U.S. for more than 30 consecutive days, their
OASDI benefits may continue to be paid, but their SSI payments are suspended.

For concurrent beneficiaries, SSA’s systems generate a foreign address alert when the
OASDI record shows an address outside the U.S. Field office (FO) staff are
responsible for investigating these alerts to determine whether the SSI payments
should be suspended. SSA’s alert process is based only on the OASDI address
information. As a result, if OASDI payments are being paid via direct deposit to a bank
outside the U.S., an alert would not be generated.

When OASDI beneficiaries or SSI recipients receive their payments through direct
deposit, a bank routing and transit number (RTN) is recorded on SSA’s payment
records. The RTN is an eight-position number assigned to the financial institution
receiving the direct deposit payment. A “5,” “6,” or “7” as the first digit of the RTN
identifies the payment method as international direct deposit. RTNs that begin with
“0215,” “0216,” “2215,” or “2216” identify financial institutions in Puerto Rico and the
Virgin Islands.

RESULTS OF REVIEW

Although SSA has controls in place to prevent SSI payments to beneficiaries who have
addresses outside the U.S. (including addresses in Puerto Rico), further improvements
could be made to enhance SSA’s efforts in this area. Specifically, SSA’s automated
controls and special projects did not identify SSI recipients who had their payments
direct-deposited into banks in Puerto Rico and the Virgin Islands. Also, SSA did not
have a control in place to identify concurrent beneficiaries who had their OASDI
benefits direct-deposited into a bank outside the U.S.—even though both their OASDI
and SSI payment records showed addresses in the U.S.


Controls to Prevent SSI Payments to Recipients Living in Foreign Countries (A-01-02-12013)   i
Based on our audit tests, we identified 64 recipients who received approximately
$106,765 in SSI payments while outside the U.S. We also identified 42 SSI recipients
who may have received $230,574 in SSI payments while outside the U.S. However,
these 42 cases are still under investigation by either our Office of Investigations and/or
SSA FO staff. Therefore, the actual amount of improper payments is not yet known.

Additionally, although we found that SSA’s automated control alerted FO staff to
investigate concurrent beneficiaries who had addresses outside the U.S. on their
OASDI records, not all of these alerts were worked timely. We identified 15 cases
which had unresolved foreign address alerts on their SSI payment records prior to
January 2002. These alerts should have been resolved between September 1998 and
December 2001.

CONCLUSIONS AND RECOMMENDATIONS
While we recognize that the errors identified during our audit are a small percentage of
the total payments SSA makes to SSI recipients, this area still needs management
attention. Since the SSI program has been designated by the General Accounting
Office as a high risk area, every effort should be made to discontinue payments as
soon as possible to recipients who are no longer eligible for them—including those who
are paid SSI inappropriately while outside the U.S. Furthermore, improvements in this
area will enhance SSA’s efforts pertaining to its strategic goal of “Zero Tolerance for
Fraud.” To improve its controls in this area—without expending significant Agency
resources—we recommend that SSA:

§   Modify its alert process to notify SSA FO staff to investigate when (1) SSI payments
    are direct-deposited to banks in Puerto Rico and the Virgin Islands; or (2) concurrent
    beneficiaries have their OASDI benefits direct-deposited into banks outside the U.S.

§   Remind staff to resolve foreign address alerts timely.

AGENCY COMMENTS

In response to our draft report, SSA agreed with the intent of our first recommendation
but would like further analysis of the return on investment. SSA agreed with our second
recommendation. (See Appendix B for SSA’s comments.)

OFFICE OF THE INSPECTOR GENERAL RESPONSE

We believe our report demonstrates the need for SSA to modify the alert process, and
we urge SSA to implement our recommendation. We believe that direct deposit into a
bank in Puerto Rico or outside the U.S. is just as much an indicator of potential
improper SSI payments as having an address outside the U.S.—which SSA’s current
alert process includes.



Controls to Prevent SSI Payments to Recipients Living in Foreign Countries (A-01-02-12013)   ii
                                                                                Table of Contents
                                                                                                                                 Page


INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................6

Improper Payments.................................................................................................6

  §    Foreign Address Alerts For Concurrent Beneficiaries
       Not Worked Timely ............................................................................................................ 7

Questionable Payments ..........................................................................................7

Proper Payments ....................................................................................................7

CONCLUSIONS AND RECOMMENDATIONS .......................................................9

OTHER MATTERS ...............................................................................................11

APPENDICES

APPENDIX A – Projects to Identify Supplemental Security Income Recipients
             Outside the United States

APPENDIX B – Agency Comments

APPENDIX C – OIG Contacts and Staff Acknowledgments




Controls to Prevent SSI Payments to Recipients Living in Foreign Countries (A-01-02-12013)
                                                                             Acronyms
ATM                Automated Teller Machine

FO                 Field Office

MBR                Master Beneficiary Record

OASDI              Old-Age, Survivors, and Disability Insurance

OI                 Office of Investigations

OIG                Office of the Inspector General

POMS               Program Operations Manual System

RTN                Routing and Transit Number

SSA                Social Security Administration

SSI                Supplemental Security Income

SSR                Supplemental Security Record

STOP               Southwest Tactical Operations Plan

U.S.               United States




Controls to Prevent SSI Payments to Recipients Living in Foreign Countries (A-01-02-12013)
                                                                             Introduction
OBJECTIVE

Our objective was to determine whether specific Social Security Administration (SSA)
controls were effective in preventing Supplemental Security Income (SSI) payments
from being made to recipients living in foreign countries.

BACKGROUND

SSA administers both the SSI and the Old-Age, Survivors, and Disability Insurance
(OASDI) programs. The SSI program provides cash assistance to individuals who have
limited income and resources, and who are either age 65 or older, blind or disabled.1
The OASDI program provides benefits to qualified retired and disabled workers and
their dependents, and to survivors of insured workers. In Calendar Year 2000,
6.6 million individuals received SSI payments and 2.4 million of these individuals also
received OASDI benefits. SSA defines individuals who receive both OASDI and SSI
payments as concurrent beneficiaries. Concurrent beneficiaries are generally eligible to
receive their OASDI benefits while outside the United States (U.S.) depending upon
such factors as citizenship and country of residence.

Section 1611(f) of the Social Security Act states that no individual shall be considered
eligible for SSI payments for any month during all of which such an individual is outside
the U.S. Once an individual has been outside the U.S. for 30 consecutive days, he or
she will be treated as remaining outside the U.S. until he or she has been back in the
U.S. for 30 consecutive days. This prohibition also applies to recipients in Puerto Rico
and the Virgin Islands. The only exemptions to collecting SSI payments while outside
the U.S. are for:

      §   certain students temporarily studying abroad, and

      §   blind or disabled children of military families stationed overseas.

When concurrent beneficiaries leave the U.S. for more than 30 consecutive days, in
many cases, their OASDI benefits continue to be paid, but their SSI payments are
suspended. Once SSI payments are suspended for being outside the U.S., SSI
                                                                2
recipients must be present in the U.S. for 30 consecutive days.



1
 To be eligible for SSI payments, the individual must also (1) be a U.S. resident; (2) be a U.S. citizen or
an eligible noncitizen; and (3) meet certain income and resource limits.

2
    Program Operations Manual System (POMS) section SI 00501.410.



Controls to Prevent SSI Payments to Recipients Living in Foreign Countries (A-01-02-12013)                    1
Public Law 104-134, the Debt Collection Improvement Act of 1996, established
provisions for encouraging direct deposit of all Federal payments.3 When an OASDI
beneficiary or SSI recipient receives payments through direct deposit, a bank routing
and transit number (RTN) is recorded on SSA’s payment records. The RTN is an eight-
position number assigned to the financial institution receiving the direct deposit
payments. A “5,” “6,” or “7” as the first digit of the RTN identifies the payment method
as international direct deposit.4 RTNs that begin with “0215,” “0216,” “2215,” or “2216”
identify financial institutions located in Puerto Rico and the Virgin Islands.

SSA’s CONTROLS
SSA has the following controls in place5 to identify SSI recipients outside of the U.S.:

      §   a foreign address alert process for concurrent beneficiaries, and

      §   various special projects or studies.

FOREIGN ADDRESS ALERT PROCESS FOR CONCURRENT BENEFICIARIES

If an individual concurrently receives both SSI and OASDI benefits, and the OASDI
record shows an address outside the U.S., SSA’s systems generate a foreign address
alert.6 This alert—known as the 2J alert—notifies the appropriate SSA field office (FO)
that the SSI recipient may be outside the U.S., and, thus, ineligible for SSI payments.
The FO is responsible for investigating the alert to determine whether the SSI payments
should be suspended.

Currently, SSA’s alert process is based only on the OASDI address information—not on
direct deposit data. As a result, if OASDI payments are being paid via direct deposit to
a bank outside the U.S., an alert would not be generated. See the flowchart on the next
page for details of this alert process.7




3
    POMS section GN 02402.001.
4
  International direct deposit countries include the United Kingdom, Canada, Germany, Norway, Ireland,
Italy, France, Sweden, Spain, Portugal, and Australia.
5
  SSA also compares Immigration and Naturalization Service applications (Form I-131) for aliens leaving
the U.S. to its payment records. However, we did not assess this process during our audit.
6
    In November 2001, SSA expanded the alert process to include OASDI addresses in Puerto Rico.
7
    The flowchart is based on POMS section SM 02001.215.


Controls to Prevent SSI Payments to Recipients Living in Foreign Countries (A-01-02-12013)                2
                                                      A le rt P ro c e s s

                        M a s te r B e n e fic ia ry               S S A ’s s ys te m s in te rfa c e to
                      R e c o rd s h o w s b e n e fit             c re a te a n a le rt a t th e S S A
                    p a ym e n ts to a n a d d re s s             F O , a s w e ll a s a d ia ry w ith a
                    o u ts id e th e U .S . a n d th e                     6 0 -d a y m a tu rity.
                      S S I p a ym e n t s ta tu s is
                          o th e r th a n “N 0 3 ”
                      (s u s p e n d e d fo r b e in g               S S A s ta ff c o n ta c t th e S S I
                       o u ts id e o f th e U .S .).                            re c ip ie n t.




                     R e m o ve th e a le rt b y          No                          Is th e S S I
                    e n te rin g 6 ze ro s in th e                           re c ip ie n t o u ts id e th e
                         d ia ry fie ld . (S S I                                    U .S . fo r 3 0
                     p a ym e n ts c o n tin u e .)                           c o n s e c u tive d a ys ?



                                                                                                Yes

                              T ra n sm it p a ym e n t s ta tu s c o d e “N 0 3 ” fo r m o n th s
                         in e lig ib le fo r S S I p a ym e n ts (th is w ill re m o ve th e d ia ry).
                                S S I p a ym e n ts w ill s to p a n d a n o ve rp a ym e n t, if
                                            a p p lic a b le , w ill b e e s ta b lis h e d .




SSA’s PROJECTS TO IDENTIFY SSI RECIPIENTS OUTSIDE THE U.S.

SSA has initiated a number of special studies and projects over the years to identify
and prevent SSI payments to recipients living outside the U.S. These projects—some
of which were conducted jointly with the Office of the Inspector General (OIG)—have
improved SSA’s controls to prevent SSI payments to recipients outside the U.S. (See
Appendix A for a description of some of these special projects.)

SCOPE AND METHODOLOGY

To accomplish our objective, we performed the following analysis.

We obtained a data extract from SSA’s Master Beneficiary Record (MBR) of
36,726,057 beneficiaries who received OASDI benefits in April 2000. Analyzing this
extract, we identified:

§   101,999 records with international direct deposit—RTNs starting with “5,” “6,” or “7;”

§   331,339 records with direct deposit to Puerto Rico or the Virgin Islands—RTNs
    starting with “0215,” “0216,” “2215,” or “2216;” and


Controls to Prevent SSI Payments to Recipients Living in Foreign Countries (A-01-02-12013)                     3
§     564,014 records with payment addresses outside the U.S (including Puerto Rico
      and the Virgin Islands).

We then matched the records described above against the Supplemental Security
Record (SSR) to identify concurrent beneficiaries who may have inappropriately
received SSI payments while outside the U.S. The chart below describes the results of
these matches.

                                                                               Results of Matches—
                                                                            Number of SSI Recipients
     Initial OASDI Records                     Date Matched                   Whose OASDI Records
             Identified                         with SSR8                    Indicated the Recipients
                                                                              Were Outside the U.S. 9
           101,999                            December 2000                            94
           331,339                             October 2001                             226
           564,014                            September 2001                            409
                     Total Number of Matches                                             729

We analyzed these 729 records by obtaining case folders, MBRs, SSRs, and
Numidents10 to confirm that:

      §   the MBR showed either a foreign address or foreign direct deposit RTN; and

      §   the SSI benefits were paid to the recipient during the same time frame that the
          MBR indicated the recipient may have been outside of the U.S.

In addition to analyzing concurrent records, we analyzed a data extract of 3.7 million
SSI recipients receiving direct deposit as of October 2001. This analysis resulted in:

      §   166 records in which the SSI payments were direct-deposited into banks in
          Puerto Rico or the Virgin Islands—RTNs starting with “0215,” “0216,” “2215,” or
          “2216.”

      §   no records in which the SSI payments were issued through international direct
          deposit to RTNs starting with “5,” “6,” or “7.”


8
    The SSR file consisted of records that were in a status code other than denials or terminations.
9
 We only counted each case once—even if it appeared in more than one time period. Also, if a record
had both address and direct deposit data outside the U.S., we only included it once—in one of the direct
deposit groups.
10
  The Numident file contains identifying information (such as name, date of birth, mother’s maiden name,
etc.) for each individual issued a Social Security number.


Controls to Prevent SSI Payments to Recipients Living in Foreign Countries (A-01-02-12013)                 4
We also analyzed the address information for the 3.7 million SSI records and found that
none of the SSI recipients had an address inappropriately listed as being outside the
U.S.

When appropriate, we referred cases to either the OIG’s Office of Investigations (OI) or
the applicable SSA FO for further action. We also analyzed cases to determine
whether the location of the direct deposit bank corresponded to the State and/or
                                   11
country of the person’s residence.

We conducted our audit between July 2001 and April 2002 in Boston, Massachusetts.
The entities audited were SSA’s FOs under the Deputy Commissioner for Operations
and the Office of International Programs under the Deputy Commissioner, Disability
and Income Security Programs. We conducted our audit in accordance with generally
accepted government auditing standards.




11
  We analyzed 94 cases and found that the bank routing numbers corresponded to the individuals’
addresses (city, state, and country). Therefore, we did not pursue further work in this area.


Controls to Prevent SSI Payments to Recipients Living in Foreign Countries (A-01-02-12013)        5
                                                         Results of Review
Although SSA has controls in place to prevent SSI payments to beneficiaries outside
the U.S. based on address information (including addresses in Puerto Rico), further
improvements could be made to enhance SSA’s efforts in this area. Specifically, SSA’s
automated controls and special projects did not identify SSI recipients who had their
payments direct-deposited into banks in Puerto Rico and the Virgin Islands. Also, SSA
did not have a control in place to identify concurrent beneficiaries who had their OASDI
benefits direct-deposited into a bank outside the U.S., even though both their OASDI
and SSI payment records showed addresses in the U.S.

IMPROPER PAYMENTS
Based on our audit tests, we identified 64 recipients who received approximately
$106,765 in SSI payments while outside the U.S. Specifically, we identified:

     §   10 SSI recipients, with direct deposit in banks in Puerto Rico or the Virgin
         Islands, who inappropriately received $17,381 in SSI payments (out of
         approximately 3.7 million SSI recipients with direct deposit); and

     §   54 concurrent beneficiaries, with either an address or direct deposit bank
         account outside the U.S. on their OASDI record, who inappropriately received
         $89,384 in SSI payments (out of approximately 2.4 million concurrent
         beneficiaries).

The following are a few examples of the cases we identified:

§    Since July 2000, an SSI recipient received his SSI payments by direct deposit into
     Banco Popular in San Juan, Puerto Rico while his SSR address was listed in
     Florida. Over a 16-month period, the recipient had $2,488 in SSI payments direct-
                               12
     deposited into this bank.

§    A concurrent beneficiary received her OASDI benefits in Puerto Rico, while her
     address on the SSR was listed in New York and her SSI payments were direct-
     deposited into a U.S. bank. She received $1,955 in SSI payments over 15 months
     while her OASDI benefits were paid in Puerto Rico. In January 2002, SSA stopped
     payments to this person by placing her in a suspended payment status for being
     outside the U.S.; and an overpayment was assessed. Her payment record was
     suspended for being outside of the U.S. for all 15 months.




12
  SSA stopped payments to this person in February 2002 by placing him in a suspended payment status
for being outside the U.S. and assessed an overpayment for the period August 2000 through January
2002.


Controls to Prevent SSI Payments to Recipients Living in Foreign Countries (A-01-02-12013)            6
FOREIGN ADDRESS ALERTS FOR CONCURRENT BENEFICIARIES NOT WORKED
TIMELY

Although we found that SSA’s automated control alerted the FO staff to investigate
concurrent beneficiaries who had addresses outside the U.S. on their OASDI records,
not all of these alerts were worked timely. We identified 15 cases prior to January 2002
which had unresolved foreign address alerts on their SSI records. These alerts should
have been resolved between September 1998 and December 2001.

After we contacted the appropriate SSA FO, 10 of the 15 cases were resolved and the
SSI payments were stopped; and the remaining 5 cases are still being investigated.
For example, an alert, dated September 1998, was generated for one case. The alert
was not worked until January 2002—after we asked the FO to look into the matter. As
a result, the SSI payments were suspended and an overpayment of $5,716 was
assessed13 for the period November 1998 through January 2002. If the alert had been
resolved more timely, the SSI payments would not have continued through January
2002—well beyond the time period that the recipient was eligible for the funds.

QUESTIONABLE PAYMENTS
We also identified 42 SSI recipients who may have received $230,574 in SSI payments
inappropriately while outside the U.S. However, these 42 cases are still under
investigation by either the OIG’s Office of Investigations and/or SSA FO staff.
Therefore, the actual amount of improper payments, if any, is not yet known.

PROPER PAYMENTS
In 786 of the 895 cases14 identified through our computer analysis, further research
showed that the recipients did not receive SSI payments while outside of the U.S. They
were not improperly paid for the following reasons:

§     219 had information associated with the records to support their eligibility for SSI
      payments despite the initial appearance of being outside the U.S.

§     366 had activity on their records after the date we extracted our data—which
      resulted in the recipients no longer having conflicting address and/or direct deposit
      information on their OASDI and/or SSI records.

§     201 had been resolved by SSA prior to our analysis of the cases.




13
     This amount is included as part of the overall results of $106,765 shown on page 6.
14
  The 895 cases consist of the 729 concurrent cases and the 166 cases with direct deposit in Puerto Rico
and the Virgin Islands described on page 4 in the Scope and Methodology section of this report.


Controls to Prevent SSI Payments to Recipients Living in Foreign Countries (A-01-02-12013)             7
Additionally, three recipients had their SSI payments terminated due to their death.
Therefore, no further investigation was performed to determine whether the SSI
payments were made inappropriately while outside the U.S.




Controls to Prevent SSI Payments to Recipients Living in Foreign Countries (A-01-02-12013)   8
                                                          Conclusions and
                                                         Recommendations
While we recognize that the improper payments identified during our audit are a small
percentage of the total payments SSA makes to SSI recipients, this area still needs
management attention. Since the SSI program has been designated by the General
Accounting Office as a high risk area,15 every effort should be made to investigate when
payments have been paid to SSI recipients who are outside the U.S. and to discontinue
payments as soon as possible to recipients who are no longer eligible for them.
Furthermore, improvements in this area will enhance SSA’s efforts pertaining to its
strategic goal of “Zero Tolerance for Fraud.”

To improve its controls in this area—without expending significant Agency resources—
we recommend that SSA:

1. Modify its alert process to notify SSA FO staff to investigate when (1) SSI payments
   are direct-deposited to banks in Puerto Rico and the Virgin Islands; or (2) concurrent
   beneficiaries have their OASDI benefits direct-deposited into banks outside the U.S.

2. Remind staff to resolve foreign address alerts timely.

AGENCY COMMENTS
In response to our draft report, SSA agreed with the intent of our first recommendation
but would like the OIG to perform further analysis to determine whether the costs of
making the system changes and processing additional workloads are outweighed by
the benefits of the proposed alerts. SSA agreed with our second recommendation and
will issue a message reminding staff of the importance of working these alerts timely.
(See Appendix B for SSA’s comments.)

OIG RESPONSE
We believe our report demonstrates the need for SSA to modify the alert process, and
we urge SSA to implement our first recommendation without additional analysis. We
believe that direct deposit into a bank in Puerto Rico or outside the U.S. is just as much
an indicator of potential improper SSI payments as an address outside the U.S.—which
SSA’s current alert process includes.




15
     General Accounting Office report (GAO-01-263), “High-Risk Series: An Update,” issued January 2001.


Controls to Prevent SSI Payments to Recipients Living in Foreign Countries (A-01-02-12013)                9
Although our audit initially identified 895 cases where it appeared that SSI payments
may have been made inappropriately, this was reduced to 328 cases after eliminating
the

   §   366 cases that had activity on their records after the date we extracted our
       data—resulting in the recipients no longer having conflicting address and/or
       direct deposit information on their OASDI and/or SSI records; and

   §   201 cases that had been resolved by SSA prior to our analysis of the 895 initial
       cases.

Therefore, the 64 cases we identified with improper payments were 20 percent of the
328 cases that would have been identified by the alert process we propose in
Recommendation 1. The percentage of cases identified by the alert process that result
in identifying improper payments could be as high as 32 percent when the 42 pending
cases are also considered.

Based on the small number of additional alerts that would be generated and the high
percentage of those cases we expect to result in identified overpayments, we believe
SSA should modify its alert process to include direct deposit outside the U.S.




Controls to Prevent SSI Payments to Recipients Living in Foreign Countries (A-01-02-12013)   10
                                                                    Other Matters
Automated Teller Machine Withdrawals
While performing our audit, we explored the idea of examining automated teller
machine (ATM) withdrawal records to identify SSI recipients who are receiving their
payments by direct deposit in a U.S. bank account, but may be living in a foreign
country and withdrawing their benefits from ATM machines outside the U.S. However,
we were not able to include ATM records in our audit tests. The Right to Financial
Privacy Act of 1978 protects against disclosure of personal financial records held by
banks, except with a subpoena.

SSA submitted a proposed rule, “Access to Information Held by Financial Institutions”,
to the Office of Management and Budget (OMB) in January 2002. This rule was
proposed to implement a law that would enhance SSA’s access to bank account
information of SSI applicants and recipients. Specifically, section 213 of the Foster
Care Independence Act of 1999 (Public Law 106-169) amended section 1631(e)(1)(B)
of the Social Security Act to grant the SSA Commissioner new authority with respect to
verifying financial accounts. The rule submitted to OMB proposes to make giving
permission to contact financial institutions a condition of SSI eligibility. This would allow
SSA to ask financial institutions for information when they think it is necessary to
determine SSI eligibility and payment amount. If this proposed rule is approved, it may
allow SSA and/or the OIG to obtain and analyze ATM withdrawal records for SSI
recipients with direct deposit in U.S. banks.

We will continue to work with the Office of Counsel to the Inspector General to
ascertain whether ATM information can be obtained and used as a tool to identify SSI
recipients who may be ineligible for payments under section 1611(f) of the Social
Security Act.




Controls to Prevent SSI Payments to Recipients Living in Foreign Countries (A-01-02-12013)   11
                                                             Appendices




Controls to Prevent SSI Payments to Recipients Living in Foreign Countries (A-01-02-12013)
                                                                                 Appendix A
Projects to Identify Supplemental Security
Income Recipients Outside the United States
The following chart describes some of the projects conducted by the Social Security
Administration (SSA) and/or the Office of the Inspector General (OIG) to identify
Supplemental Security Income (SSI) recipients outside the United States (U.S.).

     PROJECT                                              RESULTS
Southwest Tactical        STOP was a project initiated by the OIG to determine whether
Operations Plan1          individuals were receiving SSI payments based on fraudulent
(STOP)                    statements regarding residence in the El Paso, Texas area. As a
                          result of this project, the OIG estimated that SSA could recover in
                          overpayments—and save through cessation of payments—
                          $2.9 million projected over a 5-year period. This project also
                          developed characteristics to assist SSA in identifying SSI
                          claimants with questionable residency status.
New York Project          This project was initiated in the New York region to address
                          residency errors, and consisted of foreign and U.S. born
                          recipients who had not used Medicaid services for at least
                          15 months. As a result of this project, SSA determined that
                          (a) 20 percent of foreign born SSI recipients had periods of
                          ineligibility due to being outside the U.S.; and (b) 0.2 percent of
                          U.S. born recipients had payment errors because of U.S.
                          absences. This project in New York—and its expansion into New
                          Jersey—identified $13.6 million in SSI overpayments. This led to
                          additional projects being initiated in other States throughout the
                          U.S.
Address Verification This project was initiated in the New York region to determine the
Project              current residence of concurrent beneficiaries who have
                     addresses in Puerto Rico on their Master Beneficiary Records
                     and addresses in the U.S. on their Supplemental Security
                     Records. Out of the 259 cases completed, 205 were suspended
                     and overpayments of $262,391 were identified. SSA’s expansion
                     of the foreign address alert process to include Puerto Rico—
                     which was implemented in November 2001—was a result of this
                     project.




1
 SSA/OIG report “Southwest Tactical Operations Plan: Lessons Learned” (A-06-97-22010) issued
December 1997.


Controls to Prevent SSI Payments to Recipients Living in Foreign Countries (A-01-02-12013)     A-1
     PROJECT                                              RESULTS
Operation Border          This project was established to identify suspect claims at selected
Vigil                     foreign sites. Specific projects involved the following foreign
                          countries: Panama, Canada, Poland, the Republic of Yemen,
                          Costa Rica, and Mexico. In January 1998, results showed
                          savings of $89,057.
The Adequacy of           This project was conducted by SSA’s Chula Vista, California Field
the Residency             Office, in conjunction with the OIG. This project found that 110 of
Verification Process      233 recipients were living outside the U.S.—or could not be
for the SSI               located—and had their SSI payments suspended. The OIG
          2
Program                   recommended that SSA revise its procedures to provide for
                          expanded residency development.




2
  SSA/OIG report “The Adequacy of the Residency Verification Process for the Supplemental Security
Income Program” (A-06-96-62001) issued May 1997.


Controls to Prevent SSI Payments to Recipients Living in Foreign Countries (A-01-02-12013)           A-2
                                                                                 Appendix B
Agency Comments




Controls to Prevent SSI Payments to Recipients Living in Foreign Countries (A-01-02-12013)
                                           SOCIAL SECURITY
MEMORANDUM                                                                         31207-24-793


Date:      June 10, 2002                                                              Refer To:   S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Controls to Prevent Supplemental Security
           Income Payments to Recipients Living in Foreign Countries” (A-01-02-12013)—
           INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the report content and
           recommendations are attached. Staff questions can be referred to Odessa J. Woods on extension
           50378.

           Attachment:
           Proposed Comments




           Controls to Prevent SSI Payments to Recipients Living in Foreign Countries (A-01-02-12013)     B-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, "CONTROLS TO
PREVENT SUPPLEMENTAL SECURITY INCOME PAYMENTS TO RECIPIENTS
LIVING IN FOREIGN COUNTRIES” (A-01-02-12013)


Recommendation 1

SSA should modify the alert process to notify SSA field office staff to investigate when: 1) SSI
payments are direct-deposited to banks in Puerto Rico and the Virgin Islands; or 2) concurrent
beneficiaries have their Old-Age, Survivors, and Disability Insurance (OASDI benefits
direct-deposited into banks outside the United States.

SSA Comment

We agree with the intent of the recommendation. However, before we can assess the return on
investment (ROI) that a new alert would generate, we need more information from OIG. As
drafted, the study does not provide enough evidence to support such an alert from an ROI
perspective. Based on the small number of problem cases OIG identified in this audit, we are
concerned that the proposed systems modification would produce many unproductive alerts. It is
incorrect to draw the conclusion that a deposit to a Puerto Rican financial institution (identified
by OIG as one with a routing and transit number (RTN) beginning with 0215, 0216, 2215, or
2216) indicates an improper payment. Nothing precludes SSI recipients from directing their
payments to Puerto Rican financial institutions, particularly since these payments can be easily
accessed in the states where SSI is payable. Also, there are "stateside" financial institutions using
the "0215" RTN such as Citibank, Royal Bank of Canada and Banco Popular, NA.

We recommend that OIG expand the study to include information about SSI recipients' foreign
deposits and their ineligibility for benefits and/or do a study of SSA’s existing procedures in the
Program Operations Manual, Section RM 05101.001. We further recommend that the OIG
determine the extent to which the identified cases actually revealed cases of ineligibility; i.e.,
cases need to be investigated to determine where these individuals reside.

We believe that this further analysis is needed to determine whether the costs of making the
systems changes and processing additional workloads are outweighed by the benefits of the
proposed alerts.

Recommendation 2

SSA should remind staff to resolve foreign address alerts timely.

SSA Comment

We agree. SSA will issue a message to field offices within the next 60 days reminding them of
the importance of working these alerts timely.




Controls to Prevent SSI Payments to Recipients Living in Foreign Countries (A-01-02-12013)       B-2
                                                                                 Appendix C
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Director, Northern Audit Division, (617) 565-1819

   Judith Oliveira, Deputy Director, (617) 565-1765

Staff Acknowledgments

In addition to those named above:

   Kevin Joyce, Auditor

   Joseph LoVecchio, Auditor

   David Mazzola, Auditor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-01-02-12013.




Controls to Prevent SSI Payments to Recipients Living in Foreign Countries (A-01-02-12013)
                             DISTRIBUTION SCHEDULE
                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Data Analysis and Technology Audit Division                        1
 Director, Financial Audit Division                                           1
 Director, Southern Audit Division                                            1
 Director, Western Audit Division                                             1
 Director, Northern Audit Division                                            1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                 1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
President, National Council of Social Security Management Associations,
  Incorporated                                                               1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                               1
Social Security Advisory Board                                               1
AFGE General Committee                                                       9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        96
                   Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                  Office of Executive Operations
OEO supports the OIG by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and human
resources. In addition, this office is the focal point for the OIG’s strategic planning function and
the development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
